               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Travel Expense Reimbursements
           and Travel Card Usage

                       Audit Report




                                         September 27, 2012

Report Number FT-AR-12-014
                                                                   September 27, 2012

                                                   Travel Expense Reimbursements
                                                             and Travel Card Usage

                                                         Report Number FT-AR-12-014



BACKGROUND:
U.S. Postal Service employees and            In addition, eTravel allows employees to
approving officials use eTravel, a           have their per diem reimbursements
web-based system to electronically           paid to the travel card rather than
create, submit, and review travel            directly to their personal bank account,
expense reports. They may not use their      which can result in a credit balance and
official travel card for personal business   encourage employees to use it for
or exceed cash advance limits. Also,         personal purposes, which is prohibited.
when an employee is overpaid for travel      Our review of 10 employees who most
expenses, the employee should repay          frequently elected to have these
the amount to the Postal Service. The        reimbursements paid to the travel card
Postal Service incurred $95 million in       disclosed six made multiple personal
total travel expenses in fiscal year 2011.   purchases or excessive cash
                                             withdrawals.
The objective was to determine whether
Postal Service employees properly            Although each instance is unique,
claimed air and rail expenses on their       overall, approving managers do not
travel reimbursement requests and            have a mechanism to adequately
appropriately used their travel card         monitor travel card activity. Also, the
according to policy.                         Postal Service did not have clear
                                             instructions explaining how to handle
WHAT THE OIG FOUND:                          canceled airfare. As a result, the Postal
Postal Service employees improperly          Service is exposed to inappropriate or
claimed expenses on their travel             fraudulent activity that could negatively
reimbursements and inappropriately           affect its reputation.
used their travel card. We referred
issues to the U.S. Postal Service Office     WHAT THE OIG RECOMMENDED:
of Inspector General’s Office of             We recommended management provide
Investigations as appropriate.               additional mechanisms for approving
                                             managers to monitor employees travel
We found six cases in which employees        card activity. We also recommended
canceled a higher-priced airfare,            management develop clear procedures
traveled on a lower-priced one, but          for employees on how to account for
claimed the higher-priced fare on the        canceled airfares and remove the
travel reimbursement request. We also        eTravel System provision that allows
found 39 cases in which employees            employees to apply personal
claimed a canceled fare but did not          reimbursements to their travel card.
reimburse the Postal Service.                Link to review the entire report
September 27, 2012

MEMORANDUM FOR:            TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER

                           JOHN T. EDGAR
                           VICE PRESIDENT, INFORMATION TECHNOLOGY




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Travel Expense Reimbursements and Travel
                           Card Usage (Report Number FT-AR-12-014)

This report presents the results of our audit of travel expense reimbursements and
travel card usage (Project Number 12BM004FT001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Stephen J. Masse
    Ricardo L. Jackson
    Steven R. Phelps
    Corporate Audit and Response Management
Travel Expense Reimbursements                                                                                      FT-AR-12-014
 and Travel Card Usage


                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Air and Rail Expense Reimbursements ........................................................................... 2

Travel Card Use .............................................................................................................. 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Other Impact ............................................................................................. 10

Appendix C: Management’s Comments ........................................................................ 11
Travel Expense Reimbursements                                                                       FT-AR-12-014
 and Travel Card Usage



Introduction

This report presents the results of our audit of issues pertaining to travel expense
reimbursements and travel card usage (Project Number 12BM004FT001). We identified
these issues during our audit of the fiscal year (FY) 2012 U.S. Postal Service Financial
Statements – St. Louis Accounting Services. Our objective was to determine whether
Postal Service employees properly claimed air and rail expenses on their travel
reimbursement requests and whether they used their travel card appropriately. This
self-initiated audit addressed financial risk. See Appendix A for additional information
about this audit.

The Postal Service established its own travel policies1 for employees who travel for
official business and associated approving officials. The Postal Service uses the
General Services Administration (GSA) SmartPay Program2 to administer its travel card
program and offers a government travel card to designated employees for use while on
official travel. Employees and approving officials use the eTravel System, a web-based
system, to electronically manage their business travel expenses (create, submit, and
review expense reports) and access policy information. As of August 27, 2012, there
were 46,449 Postal Service travel cardholders. From FY 2011 through Quarter 2 of
FY 2012, the Postal Service incurred $52.8 million in travel expenses for airfare, rail
fare, travel agent fees, and baggage fees.3

Conclusion

Postal Service employees improperly claimed air and rail expenses on their travel
reimbursement requests and used their travel card inappropriately. We analyzed 2,016
air and rail transactions that had a corresponding full refund and found six instances in
which employees canceled and received a full refund on a higher-priced airfare, used a
lower-priced airfare for the official travel, but claimed the higher-priced airfare on the
travel reimbursement request. In addition, we found 39 instances4 in which employees
canceled a fare and included it in the travel reimbursement request but did not
subsequently repay the fare amount to the Postal Service. These improper claims
resulted in an overpayment of $19,198 for travel expenses from October 1, 2010,
through March 31, 2012.

Finally, of 10 employees who frequently elected to have their per diem reimbursement
paid to the travel card instead of their personal bank account, we found six employees
used the available balance on their card to make multiple personal purchases or

1
  Handbook F-15, Travel and Relocation, dated May 2011.
2
  The GSA SmartPay Program manages a set of master contracts through which agencies and organizations,
including the Postal Service, can obtain charge (credit) cards for employees to accomplish their mission.
3
  This does not include other travel expenses, such as hotel, car rental, and mileage.
4
  This includes: (1) 16 instances in which employees either received a credit balance refund check from the travel
card company or used the credit balance for personal purposes, and (2) 23 instances in which employees maintained
a credit balance on their travel card.
                                                            1
Travel Expense Reimbursements                                                                       FT-AR-12-014
 and Travel Card Usage


excessive cash withdrawals. We referred the issues we identified regarding air and rail
reimbursements and travel card use to the U.S. Postal Service Office of Inspector
General (OIG) Office of Investigations for further review.

Although each individual instance is unique, overall, approving managers do not have a
mechanism to adequately monitor travel card activity. Also, the Postal Service did not
have clear instructions explaining how to account for a canceled fare. In addition, the
eTravel System allows employees to apply their per diem reimbursements to the travel
card, which can result in a credit balance and encourage employees to use it for
personal purposes. As a result, the Postal Service is exposed to inappropriate or
fraudulent activity that could negatively affect the reputation of the Postal Service.

Air and Rail Expense Reimbursements

Employees improperly claimed air and rail expenses on their travel reimbursement
requests. Of 2,016 air and rail transactions that had a corresponding full refund, we
found 565 instances in which employees claimed incorrect fare amounts or the
canceled, refunded fare.6 Specifically, we found:

   Six instances in which employees claimed an incorrect fare in their travel
    reimbursement request. Employees purchased two airfares at different prices,
    canceled and received a full refund on the higher-priced airfare, and used the
    lower-priced airfare for the official travel. However, they claimed the higher-priced
    airfare on the travel reimbursement request.7

    For example, an employee purchased two roundtrip airfares departing two different
    airports on the same date. The first fare, leaving Dulles International Airport in
    Washington, D.C. to Bradley International Airport in Connecticut, was $661.40. The
    second fare, leaving Baltimore-Washington International Airport (BWI) in Maryland to
    Bradley International Airport, was $234.40. The employee canceled the higher-
    priced airfare, received a refund of $661.40, and actually flew from BWI to Bradley
    International Airport. However, the employee claimed the higher-priced fare for
    reimbursement and was subsequently paid that amount, creating a credit balance of
    $427 on the employee’s account. The employee then made a number of cash
    withdrawals to exhaust the credit amount. In total, the Postal Service overpaid
    $2,829 for these six transactions.

    Although we are not aware of the specific causes for the cases cited, approving
    managers do not have a mechanism to see all employees’ charges to the travel
    card, including fare refunds, to monitor travel card activity.

   Fifty instances in which employees claimed a canceled airfare on the travel
    reimbursement request and were subsequently paid for the amount claimed. An
5
  Of 56 instances, one was a rail transaction.
6
  We analyzed airfare and rail transactions for the period of October 1, 2010, through March 31, 2012.
7
  These six instances were incurred by two employees. In one of these instances, an employee claimed the higher
airfare and the lower airfare.


                                                        2
Travel Expense Reimbursements                                                                           FT-AR-12-014
 and Travel Card Usage


    employee is permitted to claim a canceled airfare while waiting for the airline to issue
    a refund provided the employee later returns the overpaid amount to the Postal
    Service. In seven instances, employees took the required action to reimburse the
    Postal Service for the paid amount after the airline issued a credit refund for the
    cancelation. The remaining 43 employees did not reimburse the Postal Service for
    the paid amount after the airline issued a credit refund for the cancelation.8 In four of
    those cases, the activities occurred in March 2012 or later; as such, the employees
    did not have sufficient time to take the required action to reimburse the Postal
    Service for the overpaid amount. We do not consider these as exceptions at this
    time. However, in the remaining 39 instances, we found:

    o Sixteen instances in which employees either received a refund check from the
      travel card company for the credit balance or used the credit balance for personal
      purposes. For example, one employee used the travel card to charge a personal
      hotel stay in Las Vegas, NV, and another used the travel card at the Atlantis
      Casino Resort in Reno, NV. For these 16 transactions, the Postal Service
      overpaid $8,548.

    o Twenty-three instances in which employees maintained a credit amount on their
      travel card. These credit amounts are either temporarily offset by new travel
      transactions or remain outstanding on the travel card9 for up to 17 months.10 For
      these 23 transactions, the Postal Service overpaid $7,821.

Postal Service policy11 states that in situations in which an employee is overpaid for
travel expense, the employee should complete Postal Service (PS) Form 1018, eTravel
Repayment of Overpayments or Cash Advances, to repay the amount to the Postal
Service. We did not expand our audit procedures to identify specific causes for the
individual instances cited. However, although there are instructions on what to do with
an overpayment, there are no instructions explaining how to handle different situations
involving a canceled fare.

Overall, the Postal Service overpaid $19,198 in travel expenses for air and rail
transactions improperly claimed.12 Without a method to ensure canceled tickets are not
claimed in eTravel, the Postal Service is at risk of overpaying travel expenses by
$913,803 for the 2,016 air and rail transactions that had a full refund. See Appendix B
for other impact.


8
  Both the Postal Service payment and the airline refund are applied to the employee’s travel card. The refund that
the airline issues will offset the fare amount it previously charged. Therefore, when the Postal Service pays for the
canceled airfare, this results in a credit balance in the employee’s travel card. Employees are required to reimburse
the Postal Service for the overpayment. We did not find any travel repayment data in the receivable system as of our
review date, July 2012.
9
  As of June 18, 2012, the date of the latest travel card statement reviewed.
10
   These outstanding amounts range from $28 to $1,866.
11
   Handbook F-15, dated May 2011.
12
   This amount is related to the six instances in which employees claimed the higher airfare and the 39 instances in
which employees claimed the canceled airfare and did not return the fare amount to the Postal Service. It did not
include the four transactions that occurred in March or later, as we do not consider those as exceptions at this time.


                                                          3
Travel Expense Reimbursements                                                                        FT-AR-12-014
 and Travel Card Usage


Management’s requirements for the next eTravel System upgrade include a how-to
guide for credits and refunds. Because of funding limitations, management does not
have a target implementation date for this upgrade.

Travel Card Use

Postal Service employees inappropriately used their travel card. Specifically, employees
used their travel card for personal purposes. During an 18-month period,13
1,280 employees elected to have their per diem reimbursement paid to the travel card
instead of their personal bank account one or more times, for a total of
6,634 transactions valued at $1.3 million. While policy does not prohibit this practice, we
reviewed spending activities of 10 employees who applied their per diem
reimbursement to their travel cards most frequently.14 We found six of those
10 employees used the available balance on their card to make multiple personal
purchases or excessive cash withdrawals, or both.15 Specifically:

    Five employees had either multiple gas charges or a hotel charge on their travel
     card not related to business travel. For example, during a 4-month period, two
     employees purchased gas 25 times for personal use.

    Three employees took multiple cash advances from their travel card greater than the
     allowable amount. For example, for 3 consecutive months, an employee withdrew
     more than $3,000 each month, which is more than double the allowable amount for
     cash withdrawals.16

Postal Service policy17 states that employees may not use their official government
travel card for personal business. It also states cash advances are limited to $50 per
day of official travel. These situations occurred because the eTravel System allows
employees to apply their reimbursements, such as per diem and mileage, to the travel
card.18 This may result in a credit balance in employees’ accounts and, therefore,
encourage employees to use the excess balance for personal purposes. In addition,
approving managers do not have a mechanism to see all employees’ charges to the
travel card. By providing the approving manager a method to review travel card activity,
such as a report of credit card transactions incurred by employees during the month,
this would help identify misuse, such as personal charges and cash withdrawals while
not in travel status.

Although the credit balance belongs to the employees, the travel card program is not
designed for personal use. When employees misuse their travel cards, there is an

13
   From October 1, 2010, through March 31, 2012.
14
   The frequency ranged from 46 to 81 times.
15
   Four employees had one violation, and two employees had both violations.
16
   We calculated $1,500 as the maximum allowable cash withdrawal per month ($50 per day at 30 days per month).
17
   Handbook F-15, dated May 2011.
18
   In eTravel, the employee can select the payment type for per diem reimbursement to be applied to the government
travel card, which is sent electronically to the VISA card account, or ‘Other,’ which is sent electronically to the
employee’s personal bank account.


                                                         4
Travel Expense Reimbursements                                                     FT-AR-12-014
 and Travel Card Usage


increased risk of delinquency and write-offs, which could negatively impact the Postal
Service’s contractual relationship with Citibank®. Further, the amount of money rebated
to the Postal Service is reduced when Citibank forgives delinquent accounts.

Recommendations

We recommend the vice president, controller, in coordination, with the vice president,
Information Technology:

1. Generate an instant notification to the approver when employees cancel a fare.

2. Develop written procedures to guide travelers and approving officials on the
   appropriate way to handle canceled fares.

3. Remove the eTravel System provision that allows employees to apply
   reimbursements due to them to the travel card.

4. Provide a mechanism for approving managers to monitor their employees’ travel
   card activity.

Management’s Comments

Management agreed, in principle, with all four recommendations. For Recommendation
1, management does not find it prudent to provide instant notifications to approvers for
every cancelled airfare transaction. However, they will conduct an assessment of the
eTravel system to determine whether it can remove an original cancelled airfare
transaction from being included in the eTravel report. In addition, management will use
current reporting to monitor airfares booked for the same day. Regarding
Recommendation 2, management advised that Handbook F-15 and the Travelhelp
webpage have instructions on how to handle canceled fares and refunds. For both
Recommendations 1 and 2, management will issue a policy reminder through the Postal
Service’s Postal Link and a letter from the vice president, controller, to all officers, to be
completed by January 31, 2014, and November 30, 2012, respectively.

Further, for Recommendation 3, management will remove the ability to select the travel
card as the payment method for per diem, mileage, and tolls, and will communicate the
policy change through Postal Link and a letter from the vice president, controller by
January 31, 2014. Finally, for Recommendation 4, management will require travel card
coordinators to continue to report misuse to appropriate managers as part of their
monthly reviews and will retrain them by January 31, 2013, to ensure all potential abuse
is reported to the appropriate approving manager. Management is developing a report
that highlights potential abuses to be shared as part of that training.

See Appendix C for management’s comments, in their entirety.




                                              5
Travel Expense Reimbursements                                                 FT-AR-12-014
 and Travel Card Usage


Evaluation of Management’s Comments

Except for procedures on handling canceled airfares, the OIG considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. The OIG continues to believe the instructions in the
Handbook F-15 and the Travelhelp webpage should be enhanced to provide better
guidance on how to handle a canceled fare, including what the employee does if they
claimed the fare. However, the intent of the recommendation is to assist employees with
proper handling of canceled airfares. Management’s action to issue a policy reminder
will increase awareness and is a first step to help correct the issues identified in the
report. Therefore, we will not pursue the issue further at this time but will continue to
monitor canceled airfares as part of our ongoing oversight of employee travel.




                                            6
Travel Expense Reimbursements                                                                           FT-AR-12-014
 and Travel Card Usage


                                  Appendix A: Additional Information

Background

The Postal Service established its own travel policies19 for employees who travel for
official business and associated approving officials. The Postal Service uses the GSA
SmartPay Program to administer its travel card program. Citibank, provider of the travel
card for the Postal Service, issues VISA®-branded travel cards to Postal Service
employees for use while on official travel. As of August 27, 2012, there were 46,449
Postal Service travel cardholders. VISA offers a web-based application called VISA
Intellilink, used for reporting and data analysis of card activity. Employees and
approving officials use eTravel, a web-based system, to electronically manage their
business travel expenses (create, submit, and review expense reports) and access
policy information. Over the 18-month period from October 1, 2010, through
March 31, 2012, Postal Service employees incurred 213,218 air and rail transactions,20
totaling $52.8 million. During FY 2011, the Postal Service incurred $95 million in total
travel expenses.

Postal Service policy states that employees may not use their official government travel
card for personal business and limits cash advances to $50 per day of official travel.
Policy also states that in situations in which an employee is overpaid for travel
expenses, the employee should complete PS Form 1018, eTravel Repayment of
Overpayments or Cash Advances, to repay the amount to the Postal Service. The
employee mails the form, along with a payment, to the Disbursing Office at Eagan, MN,
Accounting Services.21 Disbursing office personnel enter repayment data from PS Form
1018 into the receivable system.22

Objective, Scope, and Methodology

Our objective was to determine whether Postal Service employees properly claimed air
and rail expenses on their travel reimbursement requests and used their travel card
appropriately. To accomplish our objective, we:

    Obtained 213,218 air and rail transactions from VISA IntelliLink reports23 for the
     period from October 1, 2010, through March 31, 2012.24 We extracted the
     transactions that had an associated credit for the full amount,25 which represents
     fares later canceled (2,016 transactions). We matched these transactions against

19
   Handbook F-15, dated May 2011.
20
   This includes air and rail fare, as well as travel agent fees and baggage fees.
21
   Eagan Accounting Services, formerly referred to as an accounting service center, is one of three Postal
Service-wide and functions as a large, centralized accounting and disbursement center. Its employees are
responsible for processing payroll, maintaining the general ledger, reconciling financial data, and maintaining cash
and receivable accounts. Other Accounting Services are located in St. Louis, MO, and San Mateo, CA.
22
   ORACLE Receivable system.
23
   We extracted airfare transactions from the standard reports, All City Pair Tickets and Non City Pair Tickets. In
addition, we created a custom report to extract rail transactions.
24
   We eliminated transactions equal to or less than $50, which were mainly travel agent fees and baggage fees.
25
   We did not test transactions that were partially refunded.


                                                           7
Travel Expense Reimbursements                                                                    FT-AR-12-014
 and Travel Card Usage


       the eTravel file for the same period based on traveler name, transaction date, and
       ticket amount. This resulted in 113 air transactions and eight rail transactions.

      For the 121 transactions, we reviewed associated travel reimbursement requests in
       the eTravel System and the Citibank monthly statements from the travel date
       forward to June 18, 2012.26 We confirmed that 56 of them were canceled airfares
       that were claimed on travel reimbursement requests. For these 56 items, we
       searched for the repayment data in the ORACLE Receivable system to determine
       whether employees returned the over-claimed amount to the Postal Service.

Our initial scope included review of air and rail transactions; however, based on
observations during our initial testing, we expanded it to include review of per diem
charged to the travel cards. Specifically:

      We extracted per diem records using eTravel data for an 18-month period from
       October 1, 2010, through March 31, 2012, in which the employee selected
       government travel card as the reimbursement method. The result produced 6,634
       records associated with 1,280 employees.

      From that result, we then selected 10 employees who most frequently elected to
       have their per diem reimbursement paid to the travel card instead of their personal
       bank account. We reviewed reimbursement requests from the eTravel System and
       Citibank monthly statements to identify misuse of the travel card.

We conducted this performance audit from March through September 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 27, 2012, and included their
comments where appropriate.

We assessed the reliability of eTravel data by tracing a sample of transactions to the
Citibank electronic statements. We determined that the data were sufficiently reliable for
the purposes of this report.




26
     The June 18, 2012, Citibank statement was the most recent one available during our audit.


                                                           8
    Travel Expense Reimbursements                                               FT-AR-12-014
     and Travel Card Usage


    Prior Audit Coverage

                                                      Final Report       Monetary
          Report Title             Report Number          Date            Impact
Compliance With Travel             FF-AR-11-007     2/9/2012            $1,210,114
Policies and Opportunities for
Cost Savings
Report Results:
Employees did not comply with travel policies. Further, the Postal Service did not
cancel 2,491 credit cards issued to former employees, including 53 employees listed
as deceased in employee records. We recommended management develop training
for travelers and approving officials. We also recommended they incorporate
requirements to flag lodging that exceeds prevailing government rates and require
itemization of lodging and tax in the new electronic travel system. Further, we
recommended they require advance approval for lodging rates that exceed
prescribed government rates, document that approval, and develop procedures to
document approval. Management did not agree with our recommendations on
training and procedures to document approval due to cost constraints but proposed
to re-emphasize the importance of adhering to travel policy and remind travelers of
the availability of the web page. Management agreed with the remaining
recommendations and stated they incorporated language into the requirements
document to address the issues.




                                               9
Travel Expense Reimbursements                                                                         FT-AR-12-014
 and Travel Card Usage


                                         Appendix B: Other Impact


              Recommendation                        Impact Category                         Amount
                    1                            Disbursements at Risk27                    $913,803

For the period from October 1, 2010, through March 31, 2012, there were 2,016 air and
rail transactions that were fully refunded (tickets purchased and then canceled), totaling
$913,803.




27
     Disbursements made in which proper Postal Service internal controls and processes were not followed.


                                                          10
Travel Expense Reimbursements                                FT-AR-12-014
 and Travel Card Usage


                         Appendix C: Management’s Comments




                                        11
Travel Expense Reimbursements        FT-AR-12-014
 and Travel Card Usage




                                12
